No. ________
In the
Supreme Court of the United States
OCTOBER TERM, 2020

VICTOR MONDRAGON,
Petitioner,
V.

UNITED STATES OF AMERICA
Respondent.

PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI
AMY R. BLALOCK
Attorney-At-Law
P.O. Box 765
Tyler, TX 75710
Texas Bar Card No. 02438900
Attorney for Petitioner

QUESTIONS PRESENTED FOR REVIEW

I.

DID THE DISTRICT COURT ERR BY DENYING MR.
MONDRAGON A THREE-LEVEL DOWNWARD ADJUSTMENT
FOR ACCEPTANCE OF RESPONSIBILITY ?

II.

DID THE PANEL ERR BY EMPLOYING THE “WITHOUT
FOUNDATION” STANDARD OF REVIEW IN DETERMINING
THAT THE DISTRICT COURT DID NOT ERR BY DENYING MR.
MONDRAGON AN ADJUSTMENT FOR ACCEPTANCE OF
RESPONSIBILITY?

ii

TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii
REPORTS OF OPINIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

v

JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . v
BASIS OF FEDERAL JURISDICTION IN
THE COURT OF FIRST INSTANCE. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . v
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Procedural History . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Statement of Facts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
REASONS WHY CERTIORARI SHOULD BE GRANTED . . . . . . . . . . . . . . . . . 9
CONCLUSION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
RELIEF REQUESTED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
CERTIFICATE OF SERVICE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
APPENDIX. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

iii

TABLE OF AUTHORITIES
United States v. Chung, 261 F.3d 536 (5th Cir. 2001) . . . . . . . . . . . . . . . . . . . . . 14
United States v. Corley, 978 F.2d 185 (5th Cir. 1992) . . . . . . . . . . . . . . . . . . . . . 18
United States v. Denson , 728 F.3d 603 (6th Cir. 2013) . . . . . . . . . . . . . . . . . . . . 18
United States v. Diaz-Corado, 2009 WL 8239170 (5th Cir. 2011) . . . . . . . . . . . 17
United States v. Glover, 531 U.S. 198 (2001) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
United States v. Ibarra-Luna, 628 F.3d 712 (5th Cir. 2010) . . . . . . . . . . . . . . . . . 19
United States v. Jones, 444 F.3d 430 (5th Cir. 2006) . . . . . . . . . . . . . . . . . . . . . . 18
United States v. Juarez-Duarte, 513 F.3d 204 (5th Cir. 2008) . . . . . . . . . . . . . . . 18
Williams v. United States, 503 U.S. 193 (1992) . . . . . . . . . . . . . . . . . . . . . . . . . . 18
STATUTES
18 U.S.C. § 2. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
21 U.S.C. §§ 846, 841(a)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
21 U.S.C. § 841(a)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C., § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
U.S.S.G. §2D1.1(a)(5) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
U.S.S.G. §3C1.1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . in passim
U.S.S.G. §3E1.1(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
U.S.S.G. Ch. 5, Pt . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
iv

REPORTS OF OPINIONS
The decision of the Court of Appeals for the Fifth Circuit is reported as United
States v. Victor Mondragon, No. 20-10210 (5th Cir. November 6,

2020)(not

published). It is attached to this Petition in the Appendix.

JURISDICTION
The decision by the United States Court of Appeals for the Fifth Circuit
affirmed the District Court's judgment of conviction and sentence in the Northern
District of Texas.
Consequently, Mr. Mondragon files the instant Application for a Writ of
Certiorari under the authority of 28 U.S.C., § 1254(1).

BASIS OF FEDERAL JURISDICTION
IN THE COURT OF FIRST INSTANCE
Jurisdiction was proper in the United States District Court for the Northern
District of Texas because Mr. Mondragon was indicted for violations of Federal law
by the United States Grand Jury for the Northern District of Texas.

1

STATEMENT OF THE CASE
1.

Procedural History.

On April 24, 2001, Victor Mondragon and two codefendants were named in
two-count Indictment filed in the Northern District of Texas, Dallas Division. Count
1 charged each defendant with Conspiracy to Distribute and Possession With Intent
to Distribute Marijuana, more than 100 kilograms, in violation of 21 U.S.C. §§ 846,
841(a)(1) & (b)(1)(B). Count 2 charged each defendant with Possession With Intent
to Distribute Marijuana and Aiding and Abetting, more than 100 kilograms, in
violation of 21 U.S.C. § 841(a)(1) & (b)(1)(B) and 18 U.S.C. § 2. On July 2, 2001,
Mondragon appeared before the Honorable Paul D. Stickney, U.S. Magistrate Judge,
on behalf of the Honorable Joe Kendall, U.S. District Judge, for Arraignment,
wherein he pleaded guilty to Counts 1 and 2 of the Indictment. On the same day,
Magistrate Judge Stickney issued a Report and Recommendation Concerning Plea of
Guilty to the District Court and recommended Mondragon's plea of guilty be accepted
and he be adjudged guilty and sentenced accordingly. There is no Plea Agreement in
this case.. ROA. 25-26.1

1

In the references to the Record on Appeal, references are made according to the pagination
assigned by the Clerk of the Court.
2

On September 17, 2001, Mr. Mondragon appeared before Judge Kendall for
sentencing and Judge Kendall issued an oral order, which continued sentencing until
October 29, 2001. On October 29, 2001, Mr. Mondragon failed to appear for
sentencing and a bench warrant was issued.
On June 16, 2019, Mr. Mondragon was arrested by an officer with the Altus,
Oklahoma, Police Department for Driving Under the Influence of Alcohol and No
Valid Driver License. Mr. Mondragon was arrested under the alias name Miguel
Castanado and was released from custody before authorities learned his identity. On
September 17, 2019, Mr. Mondragon was arrested without incident by deputies with
the U.S. Marshals Service at 2728 West Davis Street in Dallas, Texas.
On September 18, 2019, Senior Judge Fitzwater issued an order accepting Mr.
Mondragon’s plea of guilty and adjudged him Guilty.
Mr. Mondragon was subsequently sentenced to a term of imprisonment of 97
months. ROA.79-80. The District Court imposed a four-year term of supervised
release. ROA.80. No fine was imposed, but Mr. Mondragon was ordered to pay a
$200 special assessment. Thereafter, Mr. Mondragon timely filed a Notice of
Appeal.
On November 6, 2020, a panel of the Court of Appeals for the Fifth Circuit
affirmed the Petitioner’s conviction in an unpublished decision.
3

2.

Statement of Facts.

Mr. Mondragon is a 59-year old man who was born in Mexico. Growing up,
he was raised by his parents with his siblings in Mexico. His family was poor and he
began to work on a ranch when he was five years old. Although they were poor, his
family was not abusive and all his material needs were met. Mr. Mondragon was
sexually assaulted by an unspecified person when he was approximately eight years
old. He stated he did not report this assault to his parents and revealed the perpetrator
resided in a surrounding community. Mr. Mondragon never told anyone about this
assault before his interview with the PSR officer. Mr. Mondragon told the PSR
officer that the assault, coupled with information he received from an individual who
was incarcerated, scared him to the extent that he absconded while on pretrial release.
Mr. Mondragon’s father died in 1997 due to heart problems and his mother
passed away in or around 2005 due to complication stemming from a broken leg. His
sister, Juana Mondragon Perez, died in 1984 due to typhoid fever and his brother,
Antonio Mondragon Perez, passed away in 2015 from diabetes. Mr. Mondragon
communicates frequently with his sisters Tomasa Mondragon Perez in Mexico and
Celsa Mondragon Perez who is a factory worker in Dallas. He has other siblings
throughout the United States and Mexico with whom he is in less frequent

4

communication. Mr. Mondragon is the father of seven children. He maintains a close
relationship with his children.
In the Factual Résumé, Mr. Mondragon and the government stipulated that
beginning April 1, 2001, and continuing through on or about April 3, 2001, Mr.
Mondragon agreed with other persons, primarily co-defendant Gonzalez, to acquire,
or cause to be acquired marijuana (a Schedule I controlled substance) in Mexico; to
transport, or cause to be transported, said marijuana to the Norther District of Texas;
and to distribute or cause to be distributed said marijuana to persons in the Northern
District of Texas. Specifically, Mr. Mondragon acknowledged on or about April 3,
2001, co-defendant Gonzalez arranged for co-defendant Gutierrez to transport
approximately 1,100 pounds of marijuana from Laredo to Dallas in a semi-tractor
trailer for distribution to Mr. Mondragon. Mr. Mondragon further stipulated on or
about April 3, 2001, he engaged in a telephone conversation with co-defendant
Gonzalez during which they made arrangements for the distribution of approximately
1,100 pounds of marijuana. Mr. Mondragon and the codefendants were held to be
responsible for 438.5 kilograms of marijuana. That is the conduct that comprised the
charge to which he entered a plea of guilty. ROA.227.

5

The Presentence Report (PSR) assigned Mr. Mondragon a base offense level
of 26 for the grouped counts, pursuant to U.S.S.G. §2D1.1(a)(5).2
The PSR officer determined that, by failing to appear at his original sentencing
hearing, Mr. Mondragon obstructed justice; therefore, the offense level was increased
by 2 levels pursuant to U.S.S.G. §3C1.1. The PSR officer did not assign an
adjustment for acceptance of responsibility. Based upon a total offense level of 28
and a criminal history category of I, the guideline range for imprisonment was 78 to
97 months. Mr. Mondragon objected to the lack of an adjustment for acceptance of
responsibility. The District Court denied this objection on the record during the
hearing. ROA.72.
Before the District Court imposed the sentence on Mr. Mondragon, the
following colloquy occurred:
MR. MENCHU:

Your Honor, I'll just preface this, Mr. Mondragon is very
nervous, so he wrote out what he would like to say to you.

THE DEFENDANT:

(Through interpreter): May she read it? Your Honor, I
request in the very best way that you would consider -have consideration of me and my family. I still have two
young daughters that very much need me. I can prove that
I have always worked well. What I am accused of was just
a mistake and today I'm very sorry for it, for having

2

"PSR" refers to the Presentence Investigation Report filed by the United States Probation
Department (under seal).
6

accompanied these people. I -- I am so sorry. And I'm just
asking for you to give me a chance. Thank you.
THE COURT:

Thank you, sir.

MR. MENCHU: Thank you, Your Honor.
THE DEFENDANT

(Through interpreter): And my daughter is also here.

MR. MENCHU: All right. Thank you, Your Honor. So you've seen my sentencing
memo, and -- and I know you know what the guideline range is,
78 to 97 months. We've heard what the government is asking for.
The government is citing the change in the guidelines that maybe
have benefited (sic) Mr. Mondragon. That's true. That's all true.
But we also have the big picture, the big picture in life. This is
almost 20 years later, two decades. A person can change. And
luckily Mr. Mondragon's involvement was not with heroin or
methamphetamine, the bad ones. I know the methamphetamine
guidelines are the highest, but heroin and others like that are the
most severe to me. He was not involved in anything like that. I
know you're probably sick of hearing this, but marijuana will be
completely legal soon. At least it was just marijuana, it wasn't one
of the poisons that say Mr. Meitl will refer to. And he stopped it
and he came back and he worked and he worked and he supported
his family, he did what we wanted him to do. This is a man who
I would say was self-rehabilitated. He has been no danger to our
society for the last 20 years. And incarcerating him for extra time
at the cost of $37,448 per year I don't think benefits our society.
The sentence I've asked for is more than sufficient to satisfy the
sentencing needs. And, judge, I think it's important, and I hesitate
to say things like this out loud, we have full courtrooms, but it's
-- I guess it's important to help him, and I know you took this into
consideration when you were determining whether he received
acceptance and had a -- a factor that warranted -- that -- that I had
sufficient evidence to get his acceptance. He did come to court for
sentencing with Mr. Sasso in 2001. He appeared in court for
sentencing. He didn't run. The sentencing for some reason, I don't
7

know, I spoke with Mr. Sasso, I know him, and he doesn't
remember exactly what happened, but sentencing was continued
that day.
THE COURT:

On the defendant's motion.

MR. MENCHU: Yes. Yes. On Mr. Sasso's oral motion. That is correct, Your
Honor. That was Mr. Sasso's motion. There was a second date set.
And in between that time -- and I found Mr. Mondragon to be
very credible, it's in the presentence report, he came upon a
gentleman who had been in prison and had been the victim of sex
assault, of extremely traumatic sex assault. Well, Mr. Mondragon
had been there too as a child, one of the worst crimes there is, sex
assault against a child, AND that affected him so -- so much that
he didn't show up. So it wasn't that he just didn't want to show up.
He was here for sentencing and then that factor occurred. And
he's human. He's human. So does that mean he should be in jail
now for nine years or so? When in the big picture for the last
almost 20 years he's been a productive member of our
community? I don't think so. And -- and not for the underlying
case we have here either. I've been in front of you many times. I
know that you generally stick with the guidelines. The guidelines
are advisory.
THE COURT:

They were mandatory at the time he was supposed to appear
before the court, isn't that correct?

MR. MENCHU: That's correct. But they are not now. They're not now.
THE COURT:

But had he obeyed and been present, I just think it's important to
note, they would have been mandatory.

MR. MENCHU: Okay. Correct, judge. I can't change the facts. They're not
mandatory now for a reason. Because -- in my opinion because
they -- they're out of line. Here is a man that has done nothing
wrong -- that has been a productive member of society for the last
20 years and if five years isn't sufficient sentence on a marijuana
8

case from 20 years ago then I don't know what is and I ask you to
sentence him to 60 months.
THE COURT:

I think the point would be he doesn't get to make those decisions
for the court by his own conduct. That's the point.

MR. MENCHU: Okay. I understand that. I understand. And we're all parents. I
understand as parents sometimes our kids make mistakes and we
may want to punish them one way but really the just way is this.
So, yeah, he does get the advantage of two point reduction. It's
not mandatory anymore. I understand that. And we don't -- you
may not like that, but it doesn't mean that 60 months isn't a fair
sentence.
THE COURT:

And did he live under his actual name all this time?

MR. MENCHU: He used another name, Your Honor.
THE COURT:

And when he was arrested on -- on the vehicle charge he was
under a false name at that time, was he not?

MR. MENCHU: That is correct, judge.
THE COURT:

Okay. Mr. Menchu, do you have anything else to present at this
time?

MR. MENCHU: Your Honor, we just wanted to add that one of his daughters
showed up a little later after we started and she had written a
letter for you. She brought today. It's rather lengthy. I think you
know what it says. It says he's been a wonderful father and she
hopes he's out as soon as possible. Thank you, judge.
*****
THE COURT:

Counsel, do you have any reason why sentence cannot lawful be
imposed at this time?

MR. MENCHU: No reason.
9

MR. MEACHAM:
THE COURT:

No, sir.

Mr. Mondragon, are you ready for me to pass sentence upon you?

THE DEFENDANT: (Through interpreter): Yes.
THE COURT:

The record will reflect that there is no plea agreement in this case.
The court is required by statute to impose a sentence that is
sufficient but not greater than necessary to comply with the
purposes for sentencing set forth in Title 18, United States Code,
Section 3553(a)(2) and is to consider all of the factors of Section
3553(a), which the court has done. Having considered the
statutory factors and the purposes for sentencing, I've determined
that a sentence of 97 months is sufficient but not greater than
necessary to comply with the purposes for sentencing set forth by
statute. Accordingly, on counts 1 and 2 of the indictment it is
adjudged that the defendant is hereby committed to the custody
of the Bureau of Prisons for a term of 97 months for each of
counts 1 and 2.

The District Court sentenced Mr. Mondragon to a 97-month term of
imprisonment. ROA. 79-80. The District Court also sentenced Mr. Mondragon to
serve a four-year term of supervised release. ROA.80. Mr. Mondragon objected to the
District Court’s sentence as being unreasonable. This objection was denied. After the
sentencing hearing, Mr. Mondragon timely filed a notice of appeal.
Mr. Mondragon appealed. His conviction and sentence was affirmed by a
Panel of the Fifth Circuit on November 6, 2020.

10

REASONS WHY CERTIORARI SHOULD BE GRANTED
The sentence imposed by the District Court was legally unreasonable because
it did not include a downward adjustment for acceptance of responsibility. The
District Court’s decision to deny the adjustment was based on erroneous reasoning
and rose to the level of “legally unreasonable”. The Panel, using an incorrect standard
of review, found that the District Court did not err by denying Mr. Mondragon an
adjustment for acceptance of responsibility because the decision of the District Court
was not “without foundation”. See United States v. Mondragon, No. 20-10210 (5th
Cir. Nov. 6. 2020)(not published).
Sentencing Guideline §3E1.1 provides for a reduction in offense level if the
defendant demonstrates an affirmative acceptance of personal responsibility for his
criminal conduct. A timely plea of guilty and a truthful admission of criminal conduct
is significant evidence of acceptance of responsibility. Other conduct can outweigh
this evidence, but only if it is “inconsistent” with such acceptance of responsibility.
U.S.S.G. §3E1.1, cmt. (n.3).
Mr. Mondragon timely pleaded guilty, admitted both the conduct comprising
the conviction and all relevant conduct, and expressed remorse for his offense. The
district court nevertheless denied an acceptance adjustment, based on Mr.
Mondragon’s failure to appear at his sentencing hearing in 2001. The district court’s
11

decision to deny the adjustment was harmful error. Had the district court rightfully
granted Mr. Mondragon’s two acceptance points, his guideline range would have
been 63-78 months. Mr. Mondragon’s sentence must therefore be vacated and
remanded for resentencing.
Under sentencing guideline §3E1.1, a defendant is entitled to a 2-level
reduction if he “clearly demonstrates acceptance of responsibility for his offense.”
U.S.S.G. §3E1.1(a). “Entry of a plea of guilty prior to the commencement of trial,”
when “combined with truthfully admitting the conduct comprising the offense of
conviction,” constitutes “significant evidence of acceptance of responsibility.” Id.,
cmt. (n. 3). This evidence, however, “may be outweighed by conduct of the defendant
that is inconsistent with such acceptance of responsibility.” Id.
The following colloquy regarding the adjustment for acceptance of
responsibility occurred during the sentencing hearing:
THE COURT:

Mr. Menchu, am I correct that the sole objection that you are
making is addressed to the revised presentence report submitted
with the second addendum and that the objection is solely the one
relating to acceptance of responsibility?

MR. MENCHU: That is correct, Your Honor.
THE COURT:

Do you wish at this time to present any argument or evidence in
support of that objection?

12

MR. MENCHU: Your Honor, I have no further evidence other than what is
referred to in my written objection and will stand by that
objection. I think it stands for itself. This is almost 20 years later.
The two factors he has met. He's truthfully admitted the offense.
That doesn't mean he has to admit anything he may have done
wrong in his life, but he truthfully admitted this offense during his
first probation interview back in 2001 and in his second probation
interview in 2019. The one thing I'm not sure about, judge -- and
I will tell you when I don't know something. I won't hide my
ignorance. We have these two factors. I think he's met factor A
and that he's been truthful in his involvement. But I don't know
the weight we give each factor, if they are 50/50 or something
else. But factor B, voluntary termination or withdrawal from
criminal conduct, my position is I can prove that and he has met
that factor beyond what -- a hundred percent, because we know
for the last -- since 2001 he has been here working and providing
for his family. Now, he did reenter illegally, I understand that, I
can't get by that. But he has been a productive member of the
community working hard. He's got a great job, he had a great job,
and supporting his family. So he has voluntarily terminated from
criminal conduct or association, and he has truthfully admitted the
offense. Judge, I don't know what else he can do. I believe he has
accepted responsibility.
THE COURT:

All right. The court in ruling on the objection is basing its factual
findings upon a preponderance of the evidence that has a
sufficient indicia of reliability to support its probable accuracy.
The court's legal conclusions are based upon its interpretation of
the guidelines, the application notes, and the controlling law. The
presentence report and the addenda to the presentence report are
considered to be reliable bases upon which to make factual
findings absent some basis to question their reliability or the
presentation by the defendant of rebuttal evidence or a showing
otherwise. In this case the court overrules the objection to
paragraph 42 wherein the defendant contends he should be given
a reduction for acceptance of responsibility. Application note 4 of
the commentary provides that conduct resulting in an
13

enhancement under guideline 3C1.1, which is obstruction of
justice, ordinarily indicates that the defendant has not accepted
responsibility for his criminal conduct. The application note
provides that there may be extraordinary cases in which
adjustments under both of these guidelines apply. I find, however,
that this is not an extraordinary case in which the defendant
receives an enhancement for obstruction is one in which he also
has accepted responsibility. I note that application note 5 provides
that the sentencing judge is in a unique position to evaluate a
defendant's acceptance of responsibility. Based upon my position
and my consideration of the materials before me, I find that this
is not an extraordinary case in which the defendant has accepted
responsibility and has also obstructed justice. ROA. 70-72.
The District Court erred by finding that Mr. Mondragon’s case does not present
an extraordinary case. Although obstruction of justice typically indicates a lack of
accepting responsibility, in extraordinary cases it is possible for a defendant to have
obstructed justice and accepted responsibility for his actions. United States v.
Chung, 261 F.3d 536 (5th Cir. 2001), USSG § 3E1.1 cmt. 4 (2016). The Application
Note states that there may be extraordinary cases in which adjustments under both
USSG §§ 3C1.1 and 3E1.1 may apply.
Mr. Mondragon appeared in Judge Kendall’s court for sentencing on
September 17, 2001. Sentencing did not take place on that date but was rescheduled
for October 29, 2001. Mr. Mondragon failed to appear for his rescheduled sentencing
hearing on October 29, 2001. A bench warrant was issued on that date. Mr.
Mondragon’s appearance at his first sentencing date is evidence of his desire to
14

comply with his court obligations. The reason he subsequently did not appear was
that he met an individual after the September date who had just been released from
prison. This individual scared Mr. Mondragon with stories of being victimized
sexually by fellow prisoners. Mr. Mondragon had already been a victim of sexual
assault. Sex assault is extremely traumatic to its victims, including Mr. Mondragon.
For fear of being victimized again, Mr. Mondragon did not appear in court the
second time.
Approximately 18 years later, on June 16, 2019, Mr. Mondragon was arrested
in Altus, Oklahoma, for a misdemeanor offense, and was released. Three months
later, he was arrested by U.S. Marshals Service deputies in Dallas, Texas, without
incident. The day following his arrest, he was brought before a U.S. Magistrate Judge,
waived his right to a detention hearing and the case was reset for sentencing. This
case is extraordinary in that, after Mr. Mondragon failed to appear for his sentencing
hearing, he ultimately resumed his life in Dallas, Texas, living and working with his
family. Mr. Mondragon remained in Dallas for over a decade and lived at the same
address for the past nine years.
Pursuant to USSG §3E1.1, comment. (n.1), the first two determining factors to
consider when deciding whether a defendant qualifies for acceptance of responsibility
are:
15

(A)

Truthfully admitting the conduct comprising the offense of
conviction and truthfully admitting or not falsely denying any
additional relevant conduct.

Mr. Mondragon was interviewed by U.S. Probation Officers on July 12, 2001,
and November 13, 2019. During the first interview, Mr. Mondragon admitted he
assisted with the unloading of marijuana. During the second interview he further
admitted the facts he stipulated to in the Factual Résumé were true and admitted his
guilt in the offense.
(B)

Voluntary termination or withdrawal from criminal conduct or
association.

Mr. Mondragon led a law-abiding life from the date he failed to appear for
sentencing until his arrest on June 16, 2019. At the time of Mr. Mondragon’s
sentencing, no charges have been filed related to this arrest.
Mr. Mondragon did not appear for his sentencing hearing and that yielded a
2-level sentencing increase for Obstruction of Justice under USSG §3C1.1. After he
failed to appear, however, he did not continue to lead a life of crime and did not
continue to overtly obstruct justice. He ultimately returned to Dallas, Texas, knowing
he had an active warrant and continued to live his life. He worked and supported his
family. He did not continue a life of crime. His is an extraordinary case in which the
16

Court can apply both an enhancement for Obstruction of Justice under USSG §3C1.1
and a reduction for Acceptance of Responsibility under USSG §3E1.1.
Here, Mr. Mondragon did not deny any facts, file any motions, frivolously
contest any relevant conduct, or put the government to any type of proof. The district
court’s finding that Mr. Mondragon obstructed justice was appropriate but it does not
create a foundation for the denial of a reduction for acceptance of responsibility. Mr.
Mondragon’s conduct cannot be viewed as “inconsistent” with his overall acceptance
of responsibility for his criminal conduct. His failure to appear at the second
sentencing hearing cannot be said to outweigh his guilty plea and truthful admission
to that charge, as required by Application Note 3. Cf. United States v. Diaz-Corado,
No. 10-40179, 2009 WL 8239170, at *2 (5th Cir. Aug. 2, 2011)
(unpublished)(relevant commentary in the Guidelines Manual is generally
authoritative). Accordingly, the district court misapplied §3E1.1 when it denied Mr.
Mondragon a reduction for acceptance of responsibility.
Incorrect Standard of Review
In affirming the District Court’s decision, the Panel determined that “the
district court’s conclusion that extraordinary circumstances did not justify the award
of a reduction acceptance of responsibility is not without foundation”. The standard
of review “without foundation” is a standard of review more deferential than the
17

clearly erroneous standard. See United States v. Juarez-Duarte, 513 F.3d 204, 211
(5th Cir. 2008) (per curiam).
This standard of review is incorrect. The facts in this case are uncontested. Mr.
Mondragon suggests, as another Circuit stated, "if the only issue presented is the
propriety of applying the reduction to the uncontested facts, the decision is reviewed
de novo." United States v. Denson , 728 F.3d 603, 614 (6th Cir. 2013).
Harm Analysis
In this case, the court’s erroneous reliance on Mr.Mondragon’s failure to
appear conduct was not harmless. While Mr. Mondragon “bears the initial burden of
showing that the district court relied upon an invalid factor at sentencing,” he “does
not have the additional burden of proving that the invalid factor was determinative
in the sentencing decision.” United States v. Jones, 444 F.3d 430, 436 (5th Cir. 2006);
see also Williams v. United States, 503 U.S. 193, 203 (1992). “Rather, once the court
of appeals has decided that the district court misapplied the Guidelines, a remand is
appropriate unless the reviewing court concludes, on the record as a whole, that the
error was harmless, i.e., that the error did not affect the district court’s selection of the
sentence imposed.” Id. The burden for showing harmlessness falls on “the party
defending the sentence on appeal.” United States v. Corley, 978 F.2d 185, 186 (5th
Cir. 1992); see also Williams, 503 U.S. at 203.
18

First, the government must compellingly prove that the district court would
have imposed a sentence outside the properly calculated sentencing range for the
same reasons it provided at the sentencing hearing. United States v. Ibarra–Luna, 628
F.3d 712, 718–19 (5th Cir. 2010). Second, the government must demonstrate that the
“sentence the district court imposed was not influenced in any way by the erroneous
Guidelines calculation.”Id. at 719. “This is a heavy burden.” Id. at 717.
The sentence assessed-- 97 months-- is not available when utilizing the proper
total offense level of 26; which, when cross-indexed with Mr. Mondragon’s criminal
history category of I, yields an advisory guideline range of only 63-78 months. See
U.S.S.G. Ch. 5, Pt. A. Any increase in sentence constitutes harm to Mr. Mondragon.
See United States v. Glover, 531 U.S. 198 (2001).
The District Court made no statements during the sentencing hearing from
which one could even speculate that the district court would have imposed a sentence
outside the advisory guideline range. Because the District Court’s procedural error
was not harmless, this Court is respectfully requested to vacate the sentence assessed
below and remand for new hearing on punishment.
The District Court erred by denying an offense reduction for Mr. Mondragon’s
acceptance of responsibility. Because the denial of the reduction lead to a larger
offense level than otherwise would have been used in calculating the guideline range
19

applicable to Mr. Mondragon, and because he was sentenced at the top end of the
range found by the District Court, he was sentenced outside the proper guideline
range and his sentence is unreasonable.
Because the Panel employed an incorrect standard of review, Mr. Mondragon
therefore requests that this Petition be granted, that the decision by the Panel is
vacated, and that the case is remanded to the Fifth Circuit for proceedings consistent
with this Court’s decision; or that his sentence be vacated and remanded to the
District Court for re-sentencing.

20

CONCLUSION
This Petition for Writ of Certiorari should be granted and the decision of the
Fifth Circuit should be vacated, and the case should be remanded for proceedings
consistent with this Court’s opinion.

Respectfully submitted,
/s/ Amy R. Blalock
AMY R. BLALOCK
Attorney-At-Law
P.O. Box 765
Tyler, TX 75710
(903) 262-7520
amyblalock@outlook.com
Texas Bar Card No. 02438900
Attorney for Petitioner

21

RELIEF REQUESTED
FOR

THESE REASONS,

the Petitioner moves this Court to grant a Writ of

Certiorari in order to review the Judgment of the United States Court of Appeals for
the Fifth Circuit.

Respectfully submitted,

/s/ Amy R. Blalock
AMY R. BLALOCK
Attorney-At-Law
P.O. Box 765
Tyler, TX 75710
(903) 262-7520
amyblalock@outlook.com
Texas Bar Card No. 02438900
Attorney for Petitioner

22

CERTIFICATE OF SERVICE
I certify that on the 25th day of November, 2020, I served one (1) copy of the
foregoing Petition for Writ of Certiorari on the following individuals by mail
(certified mail return receipt requested) by depositing same, enclosed in post paid,
properly addressed wrapper, in a Post Office or official depository, under the care and
custody of the United States Postal Service, or by other recognized means pursuant
to the Rules of the Supreme Court of The United States of America, Rule 29:
Solicitor General
U.S. Department of Justice
Washington, D.C. 20530
Leigha Amy Simonton
Assistant United States Attorney
Northern District of Texas
Dallas, Texas
Brian McKay
Assistant United States Attorney
Northern District of Texas
Dallas, Texas
VICTOR MONDRAGON
USM #26790-177
BIG SPRING CORRECTIONAL INSTITUTION
2001 RICKABAUGH DR
BIG SPRING, TX 79720
/s/ Amy R. Blalock
AMY R. BLALOCK

23

No. ___________
In the
Supreme Court of the United States
OCTOBER TERM, 2020

VICTOR MONDRAGON,
Petitioner,
V.

UNITED STATES OF AMERICA
Respondent.

APPENDIX

OPINION OF THE UNITED STATES COURT
OF APPEALS FOR THE FIFTH CIRCUIT

Case: 20-10210

Document: 00515629765

Page: 1

Date Filed: 11/06/2020

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED

No. 20-10210
Summary Calendar

November 6, 2020
Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Victor Mondragon,
Defendant—Appellant.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:01-CR-136-3
Before Haynes, Willett, and Ho, Circuit Judges.
Per Curiam:*
Victor Mondragon appeals his concurrent, within-guidelines
sentences of 97 months of imprisonment imposed following his guilty plea
convictions of one count of aiding and abetting and possession with intent to
distribute marijuana and one count of conspiracy to distribute and possession

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

Case: 20-10210

Document: 00515629765

Page: 2

Date Filed: 11/06/2020

No. 20-10210

with intent to distribute marijuana. His total offense level included an
upward adjustment for obstruction of justice, pursuant to U.S.S.G. § 3C1.1,
because he failed to appear for sentencing in 2001. He argues that the district
court erred by declining to grant him a reduction for acceptance of
responsibility under U.S.S.G. § 3E1.1, contending that his case is of the
extraordinary kind where both the §§ 3C1.1 and 3E1.1 adjustment may apply.
This court will “affirm the denial of a reduction for acceptance of
responsibility unless it is without foundation, a standard of review more
deferential than the clearly erroneous standard.” United States v. Lord, 915
F.3d 1009, 1017, cert. denied, 140 S.Ct. 320 (2019) (internal quotation marks
and citation omitted). Conduct resulting in an enhancement for obstruction
of justice, pursuant to § 3C1.1, “ordinarily indicates that the defendant has
not accepted responsibility for his criminal conduct.” § 3E1.1, comment.
(n.4). Yet, there may be extraordinary cases in which both adjustments
apply. § 3E1.1, comment. (n.4); United States v. Chung, 261 F.3d 536, 540
(5th Cir. 2001).
Mondragon initially minimized his involvement in the offense of
conviction and failed to appear for sentencing in 2001, remaining at large for
18 years. His acceptance of responsibility following his rearrest does not
overcome the obstruction enhancement for absconding. See United States v.
Ayala, 47 F.3d 688, 691 (5th Cir. 1995). Although he asserts his failure to
appear was based on good reasons and not on lack of acceptance, given the
facts surrounding his abscondence, the district court’s conclusion that
extraordinary circumstances did not justify the award of a reduction
acceptance of responsibility is not without foundation.
The judgment of the district court is AFFIRMED.

2

Case: 20-10210

Document: 00515629772

Page: 1

Date Filed: 11/06/2020

United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

November 06, 2020
MEMORANDUM TO COUNSEL OR PARTIES LISTED BELOW
Regarding:

Fifth Circuit Statement on Petitions for Rehearing
or Rehearing En Banc
No. 20-10210

USA v. Victor Mondragon
USDC No. 3:01-CR-136-3

Enclosed is a copy of the court's decision. The court has entered
judgment under Fed. R. App. P. 36. (However, the opinion may yet
contain typographical or printing errors which are subject to
correction.)
Fed. R. App. P. 39 through 41, and 5TH Cir. R. 35, 39, and 41 govern
costs, rehearings, and mandates. 5TH Cir. R. 35 and 40 require you
to attach to your petition for panel rehearing or rehearing en
banc an unmarked copy of the court's opinion or order.
Please
read carefully the Internal Operating Procedures (IOP's) following
Fed. R. App. P. 40 and 5TH Cir. R. 35 for a discussion of when a
rehearing may be appropriate, the legal standards applied and
sanctions which may be imposed if you make a nonmeritorious
petition for rehearing en banc.
Direct Criminal Appeals. 5TH Cir. R. 41 provides that a motion for
a stay of mandate under Fed. R. App. P. 41 will not be granted
simply upon request. The petition must set forth good cause for
a stay or clearly demonstrate that a substantial question will be
presented to the Supreme Court. Otherwise, this court may deny
the motion and issue the mandate immediately.
Pro Se Cases.
If you were unsuccessful in the district court
and/or on appeal, and are considering filing a petition for
certiorari in the United States Supreme Court, you do not need to
file a motion for stay of mandate under Fed. R. App. P. 41. The
issuance of the mandate does not affect the time, or your right,
to file with the Supreme Court.
Court Appointed Counsel. Court appointed counsel is responsible
for filing petition(s) for rehearing(s) (panel and/or en banc) and
writ(s) of certiorari to the U.S. Supreme Court, unless relieved
of your obligation by court order. If it is your intention to
file a motion to withdraw as counsel, you should notify your client
promptly, and advise them of the time limits for filing for
rehearing and certiorari.
Additionally, you MUST confirm that
this information was given to your client, within the body of your
motion to withdraw as counsel.

Case: 20-10210

Document: 00515629772

Page: 2

Date Filed: 11/06/2020

Sincerely,
LYLE W. CAYCE, Clerk
By: _______________________
Christina C. Rachal, Deputy Clerk
Enclosure(s)
Ms. Amy R. Blalock
Mr. Brian W. McKay
Ms. Leigha Amy Simonton

